   October 15, 2003




Financial Management

Promptness of FY 2004 First
Quarter DoD Payments to the
Department of the Treasury for
District of Columbia Water and
Sewer Services
(D-2004-010)




                  Office of the Inspector General
                               of the
                      Department of Defense
                                       Constitution of
                                     the United States

      A Regular Statement and Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                                 Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

WASA                  Water and Sewer Authority
         Office of the Inspector General of the Department of Defense
Report No. D-2004-010                                                  October 15, 2003
  (Project No. D2003CG-0191)

        Promptness of FY 2004 First Quarter DoD Payments to the
           Department of the Treasury for District of Columbia
                       Water and Sewer Services

                                Executive Summary

Who Should Read This Report and Why? This report should be read by civil service
managers, uniformed officers, and other individuals who have a direct interest in, or are
in need of information about, the promptness of water and sewer payments to the District
of Columbia.

Background. The audit was conducted in response to Public Law 106-554, the
Consolidated Appropriations Act of 2001. The Act requires the inspector general of each
Federal agency that receives water and sewer services from the District of Columbia to
report to the Congressional Appropriations Committees on the promptness of payments
within 15 days of the start of each quarter. The District of Columbia Water and Sewer
Authority supplies both water and sewer services to Federal agencies and DoD
Components within the National Capital Region. The Department of the Treasury is the
collection agent for Federal agencies and DoD Components’ water and sewer payments,
with the Department of the Treasury submitting a single payment to the Water and Sewer
Authority. The DoD Components, composed of 16 separate installations, sites, and
organizations, are required to make advance quarterly payments to the Department of the
Treasury for estimated bills on anticipated water usage in FY 2004. If the estimated bill
is more than actual usage, the DoD Components receive a credit 3 years after the
payment, which is the time it takes for billing reconciliation.

Results. The Navy made the first quarter FY 2004 payment to the Department of the
Treasury for District of Columbia water and sewer services by October 1, 2003. On
October 2, 2003, the Department of the Treasury withdrew $307,000 from Bolling Air
Force Base to pay the District of Columbia for water and sewer services provided. The
Department of the Treasury did not withdraw funds from Walter Reed Army Medical
Center and Fort McNair because the District of Columbia Water and Sewer Authority did
not provide a timely response to the Department of the Treasury’s request for
documentation to support Walter Reed Army Medical Center and Fort McNair billings.
Washington Headquarters Services, Arlington National Cemetery, and the National
Imagery and Mapping Agency have credit balances from prior overpayments based on
duplicate billings and were not required to make quarterly payments for FY 2004.

Management Comments. We provided a draft of this report on October 8, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  2

Findings
     DoD FY 2004 First Quarter Payments to the Department of the Treasury   3

Appendixes
     A. Scope and Methodology                                               5
     B. Prior Coverage                                                      6
     C. DoD Customers of the District of Columbia Water and Sewer
         Authority                                                          8
     D. Report Distribution                                                 9
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 states:
               Not later than the 15th day of the month following each quarter, the
               inspector general of each Federal department, establishment, or agency
               receiving water services [or sanitary sewer services] from the District
               shall submit a report to the Committees on Appropriations of the House
               of Representatives and the Senate analyzing the promptness of
               payment with respect to the services furnished to such department,
               establishment, or agency.

    This report covers FY 2004 first quarter payments and is one in a series of reports
    discussing the promptness of DoD payments to the Department of the Treasury
    for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and DoD
    Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the Department of the Treasury
    for water and sewer services provided to the Federal agencies, including DoD
    Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was to
    be paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’ water
    and sewer payments, with the Department of the Treasury remitting a single
    quarterly payment to the District of Columbia. Public Law 106-554 amends the
    process Federal agencies use for making payments to the Department of the
    Treasury. When agencies do not forward timely payments of amounts that
    WASA bills, the Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    WASA by the second day of each quarter. The Department of the Treasury
    makes quarterly payments to WASA based on meter readings and estimates
    provided by WASA. The DoD Components are required to make quarterly
    payments to the Department of the Treasury for those annual estimated bills. See
    Appendix C for a list of DoD Components, composed of 16 separate installations,
    sites, and organizations that received WASA services.

    Federal Agency Responsibility. Public Law 101-168 mandates responsibility to
    the respective Federal agencies for payment of water and sewer services. The
    funds for the DoD Components receiving water and sewer services come through
    each agency’s operating budgets and their respective appropriations bills for the


                                             1
    current fiscal year. Each quarterly payment is due to the U.S. Treasury account,
    “Federal Payment for Water and Sewer Services,” on the first day of the quarter.
    If the estimated bill is more than actual usage, the DoD Components receive a
    credit 3 years after the payment, which is the time it takes for billing
    reconciliation.


Objectives
    The audit objective was to determine the promptness of DoD FY 2004 first
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior coverage related to the objective.




                                        2
           DoD FY 2004 First Quarter Payments to
           the Department of the Treasury
           The Navy made the first quarter FY 2004 payment to the Department of
           the Treasury for District of Columbia water and sewer services on
           October 1, 2003. On October 2, 2003, the Department of the Treasury
           withdrew $307,000 from Bolling Air Force Base to pay WASA for water
           and sewer services provided. The Department of the Treasury did not
           withdraw funds from Walter Reed Army Medical Center and Fort McNair
           because WASA did not provide a timely response to the Department of
           the Treasury’s request for documentation to support its billing and
           payment information. Washington Headquarters Services, Arlington
           National Cemetery, and the National Imagery and Mapping Agency have
           credit balances from prior overpayments based on duplicate billings and
           were not required to make quarterly payments for FY 2004.


Promptness of FY 2004 First Quarter DoD Payments
    The Department of the Treasury can withdraw funds on the second day of the
    quarter if payments are not made on the first day of the quarter. Thus, DoD
    Component payments are never more than one day late. DoD Components,
    except the Navy, did not make first quarter FY 2004 payments of their District of
    Columbia water and sewer bills by October 1, 2003. Walter Reed Army Medical
    Center, Fort McNair, and Bolling Air Force Base attempted to make payments by
    submitting accounting citations to the Department of the Treasury after
    October 1, 2003. Consequently, the Department of the Treasury withdrew
    $307,000 for water and sewer services billed by WASA to Bolling Air Force
    Base. The Department of the Treasury did not withdraw funds from Walter Reed
    Army Medical Center and Fort McNair because WASA did not provide a timely
    response to the Department of the Treasury’s request for supporting
    documentation. DoD Component payments are due on October 1, which is the
    first day of the fiscal year for DoD Components. However, there is usually a
    minor problem with either the availability of funds for DoD Components or
    estimated water and sewer bills from WASA lacking supporting documentation.
    These minor problems are generally resolved by the second quarter.

    As shown in the following table, DoD Components were billed $1.5 million, paid
    $514,000, had credits from prior overpayments of $272,000, and the Department
    of the Treasury withdrew $307,000 for the FY 2004 first quarter payments.




                                        3
                          DoD Components’ FY 2004 First Quarter Bills and Payments
                                          (As of October 2, 2003)
                                                      Amount Billed          Credits From Overpayments             Amount Paid
                                                       (thousands)                   (thousands)                   (thousands)

Washington Headquarters Services1                         $     0                         $     (36)                    $     0
                                  2
Arlington National Cemetery                                     0                               (64)                          0
               3
Fort Myer                                                                                      (143)
                   4,5
Defense in DC                                                 688                                 0                           0
         6
Navy                                                          514                                 0                         514
Bolling Air Force Base                                        307                                 0                         307
                                              7
National Imagery and Mapping Agency                             0                               (29)                          0
       Total                                            $1,509                                $(272)                    $821
1
    For FY 2004, Washington Headquarters Services received a credit of $144,000 because of overpayments; $36,000 represents the
    quarterly credit amount.
2
    For FY 2004, Arlington National Cemetery received a credit of $254,000 because of overpayments; $64,000 represents the
    quarterly credit amount.
3
    Fort Myer and Fort McNair are both part of the Fort Myer Military Community.
4
    Includes Fort McNair, National War College, National Defense University Center, and Walter Reed Army Medical Center.
5
    Estimated amount billed for FY 2004 was $2.8 million ($688,000 represents the quarterly amount billed).
6
    Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th and I), Naval
    Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard.
7
    For FY 2004, National Imagery and Mapping received a credit of $118,000 because of overpayments; $29,000 represents the
    quarterly credit amount.




                                                                    4
Appendix A. Scope and Methodology
   We reviewed the DoD Components billing and payment information for the first
   quarter of FY 2004 for District of Columbia water and sewer services.
   Specifically, we reviewed the billing estimate that DoD Components received
   from WASA to establish the amounts billed for water and sewer services. We
   contacted the Department of the Treasury to confirm that funds available to DoD
   Components were withdrawn to pay the District of Columbia for FY 2004 first
   quarter water and sewer bills. See Appendix C for a list of DoD Components that
   received water and sewer services from WASA.

   We performed this audit from September 2003 through October 2003 in
   accordance with generally accepted government auditing standards.

   We did not review management controls because the audit is required every
   3 months by statute and an audit of the management control program, Inspector
   General of the Department of Defense (IG DoD) Report No. D-2002-140, has
   already been issued.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD high-risk area identified as, “Confront and transform pervasive,
   decades-old financial management problems.”




                                       5
Appendix B. Prior Coverage

IG DoD
    IG DoD Report No. D-2003-118, “Promptness of FY 2003 Fourth Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” July 15, 2003

    IG DoD Report No. D-2003-079, “Promptness of FY 2003 Third Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” April 15, 2003

    IG DoD Report No. D-2003-049, “Promptness of FY 2003 Second Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” January 15, 2003

    IG DoD Report No. D-2003-010, “Promptness of FY 2003 First Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” October 15, 2002

    IG DoD Report No. D-2002-140, “Measurement of Water Usage by DoD
    Components Serviced by the District of Columbia Water and Sewer Authority,”
    August 20, 2002

    IG DoD Report No. D-2002-128, “Promptness of FY 2002 Fourth Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” July 15, 2002

    IG DoD Report No. D-2002-082, “Promptness of FY 2002 Third Quarter DoD
    Payments to the Department of the Treasury for District of Columbia Water and
    Sewer Services,” April 15, 2002

    IG DoD Report No. D-2002-040, “Promptness of FY 2002 Second Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” January 15, 2002

    IG DoD Report No. D-2002-007, “Promptness of FY 2002 First Quarter DoD
    Payments to the U.S. Treasury for District of Columbia Water and Sewer
    Services,” October 15, 2001

    IG DoD Report No. D-2001-159, “Promptness and Completeness of FY 2001
    Fourth Quarter DoD Payments to the U.S. Treasury for Water and Sewer Services
    Provided by the District of Columbia,” July 13, 2001




                                       6
IG DoD Report No. D-2001-100, “Promptness and Completeness of FYs 2000
and 2001 DoD Payments to the U.S. Treasury for Water and Sewer Services
Provided by the District of Columbia,” April 13, 2001

IG DoD Report No. D-2001-053, “DoD Payments to the U.S. Treasury for Water
and Sewer Services Provided by the District of Columbia,” February 15, 2001




                                 7
Appendix C. DoD Customers of the District of
            Columbia Water and Sewer
            Authority
According to the District of Columbia WASA, the list below identifies the 16 DoD
Components to which WASA provided estimated bills for water and sewer services
during FY 2004.

       Army
       Arlington National Cemetery
       Fort McNair
       Walter Reed Army Medical Center

       Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks (8th and I)
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

       Air Force
       Bolling Air Force Base
       Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                           8
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Other Defense Organizations
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of the Treasury




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        10
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Deborah L. Culp
Ronald W. Hodges
Kandy T. Adams
Miwon Kim
Courtney V. Biggs
Monica Noell
